  ENTERPRISE ARCHITECTURE

                    EXECUTIVE SUMMARY
An OIG contractor (KPMG) performed a limited review of the Commission’s
enterprise architecture. Although the work was terminated early, KPMG prepared
an Enterprise Architecture (EA) Management Maturity Scorecard (as of April 15,
2004) which we shared with the Office of Information Technology. The scorecard
showed the extent of the Commission’s progress and compliance with EA guidelines
and best practices (as mandated by the Clinger-Cohen Act, the Office of
Management and Budget, the Government Accountability Office, and the Federal
Chief Information Officers’ Council).
The Commission has taken several steps towards developing and documenting an
“As-Is” architecture in accordance for the most part with the Federal Enterprise
Architecture (FEA). We are recommending that the Office of Information
Technology (OIT) obtain business owner validation and support of the current “As-
Is” EA state; establish a communication strategy to introduce EA successfully
throughout the Commission; establish EA program plan provisions to ensure
adequate compliance with project management processes, configuration
management, quality assurance, risk management, and security policies and
procedures; and complete an "As-Is" architecture with parallel mappings to the
requirements of the FEA Reference Models.


                 SCOPE AND OBJECTIVES
In October 2003, we initiated an audit to assess the Commission’s progress in
establishing an enterprise architecture (EA) as mandated by the Clinger-Cohen Act,
the Office of Management and Budget (OMB), and the Federal government’s
Enterprise Architecture Project Management Office (FEAPO). The objectives of the
audit were to determine the:
      •   Extent to which the Commission developed and documented an “as-is”
          and “to-be” EA and migration strategy, and complied with Federal EA
          guidelines and requirements;
      •   Maturity level of the Commission’s EA management processes using the
          Government Accountability Office’s (GAO) and the Federal Chief
          Information Officer (CIO) Council’s EA guidelines; and
      •   Effectiveness of the Commission’s management controls and processes to
          manage its EA efforts.
                                                                              P ag e   2



To perform the audit, we contracted with KPMG, LLP. However, in April 2004, we
discontinued the audit for contractual reasons that were determined to be in the
Commission’s best interests.
The audit was performed in accordance with generally accepted government
auditing standards.



                           AUDIT RESULTS
Although this audit was not completed, the work performed provides useful
management information. The Office of Information Technology can integrate this
information into its implementation and design of EA management processes and
controls.
We provided OIT with an EA Management Maturity Scorecard (as of April 15, 2004)
of the Commission’s progress and compliance with the EA guidelines and best
practices (as mandated by the Clinger-Cohen Act, OMB, GAO, and the Federal CIO
Council). The scorecard was based on the audit work performed by KPMG.
Below, we synopsize our understanding of the Commission’s progress to implement
an enterprise architecture and establish EA management controls, processes, and
best practices that comply with Federal EA requirements. Our conclusions are
based on the limited work performed by KPMG discussed above. Additional audit
work might have modified our conclusions.
Objective 1: Determine the extent to which the Commission developed and
documented an “as-is” and “to-be” EA, migration strategy, and whether the
Commission was in compliance with Federal EA guidelines and
requirements.
The Commission has taken several steps towards developing and documenting an
“As-Is” architecture. The ‘”As-Is” architecture appears to be in accord for the most
part with the FEA, as follows:

   •   Business Reference Model (BRM) – The Commission’s Business Reference
       Model identifies the lines of business, functions, sub-functions, and processes
       of the Commission and appears to be in accord with the BRM v2.0
       descriptions.

   •   Technical Reference Model (TRM) – The Commission’s Technical Reference
       Model identifies the current network infrastructure systems in the TRM
       domain (Service Access & Delivery, Service Platform and Infrastructure,
       Component Framework Service Area, Service Interface and Integration).

   •   Service Reference Model (SRM) – The Commission’s SRM efforts consist of
       the Information Resource Catalog (IRC). While the Commission’s Service
       Reference Model is not compliant with the FEA’s SRM, we understand that
       OIT has begun to link the Information Resource Catalog to the Service
       Reference Model.



EN TERPRISE A RCHITECTU RE (AUDI T 381)                                                    MA
                                                                             P ag e    3




   •   Data Reference Model - a Logical Data Model (LDM) is under construction; a
       benchmark analysis with the related FEA Data Reference Model was not
       conducted (the DRM has not yet been released).

   •   Performance Reference Model - planned initiatives for developing a
       Performance Reference Model include consideration of performance measures
       from the Government Performance and Results Act (GPRA); however, this
       initiative has not yet started.

The Commission’s current focus is on developing the "As-Is" architecture model. To
accomplish this, business owners need to provide feedback to validate the model. In
addition, completion of the applicable FEA reference models would also be helpful.

The Commission's plan to complete a "To-Be" and migration strategy depends upon
the accuracy and completeness of the "As-Is" architecture. At the time of the audit,
OIT had not yet set a date for completion of the “To-Be” architecture and migration
strategy.

Objectives 2 & 3: Determine the maturity level of the Commission’s EA
management processes using GAO’s and the Federal CIO Council’s EA
guidelines; and effectiveness of the Commission’s management controls
and processes to manage its EA efforts.

The Commission's enterprise architecture work has several achievements. Some
areas require further development.

The EA effort started in January 2001 and began with only limited OIT resources
and contractor assistance. The focus has been on building an “As Is” state with
limited involvement from the business units. As part of gathering EA information,
interviews with over 90% of mission areas have been conducted; however, the results
have not been verified with the business owners.

OIT has established an EA Intranet web site for internally disseminating EA
information. It has also employed the DesignBank software for its version
management and has developed a web based application, Securities and Exchange
Commission Enterprise Architecture Repository (SECEAR) to satisfy management,
management information, and repository needs. OIT is developing and plans to
complete development of the EA in accordance with the FEA.

To enhance the utility of the EA, OIT needs to take the following steps:

   •   Obtain business owner validation and support of the current “As-Is” EA
       state;
   •   Establish a communication strategy to introduce EA successfully throughout
       the Commission;




EN TERPRISE A RCHITECTU RE (AUDI T 381)                                                    MA
                                                                         P ag e   4



   •   Establish EA program plan provisions to ensure adequate compliance with
       project management processes, configuration management, quality
       assurance, risk management, and security policies and procedures; and
   •   Completion of the "As-Is" architecture with parallel mappings to the
       requirements of the FEA Reference Models.


       Recommendation A
       To improve the Commission’s Enterprise Architecture, OIT should implement
       the actions described immediately above.




EN TERPRISE A RCHITECTU RE (AUDI T 381)                                               MA
